                                         October 4, 2004




MEMORANDUM TO:             Chairman Diaz



FROM:                      Hubert T. Bell/RA/
                           Inspector General


SUBJECT:                   INSPECTOR GENERAL’S ASSESSMENT OF THE
                           MOST SERIOUS MANAGEMENT CHALLENGES
                           FACING NRC (OIG-05-A-01)


SUMMARY

On January 24, 2000, Congress enacted the Reports Consolidation Act of 2000 to
provide financial and performance management information in a more meaningful
and useful format for the Congress, the President, and the public. Included in the
Act is the requirement that the Inspector General of each Federal agency
summarize what he or she considers to be the most serious management and
performance challenges facing the agency and assess the agency’s progress in
addressing those challenges. In compliance with the Reports Consolidation Act of
2000, I am submitting my annual assessment of the most serious management
challenges confronting the United States Nuclear Regulatory Commission (NRC).
Also, included in this submission is a listing of the Office of the Inspector General
(OIG) audit and investigative reports issued during fiscal year 2004. These reports
address the challenges identified.

Congress left the determination and threshold of what constitutes a most serious
management challenge to the discretion of the Inspectors General. Consequently,
I applied the following definition in preparing my statement:


      Serious management challenges are mission critical areas or programs that
      have the potential for a perennial weakness or vulnerability that, without
      substantial management attention, would seriously impact agency
      operations or strategic goals.

The most serious management challenges facing NRC may be, but are not
necessarily, areas that are problematic for the agency. The challenges identified
represent critical areas or difficult tasks that warrant high-level management
                  Inspector Generals’ Assessment of the Most Serious Management Challenges Facing NRC



attention. This year, I identified nine management challenges that I consider to be
the most serious. These challenges are essentially the same ones identified last
year with a minor title change.

DISCUSSION

The most serious management challenges that follow are not ranked in any order
of importance.


CHALLENGE 1
Protection of nuclear material used for civilian purposes.

NRC’s vision, as stated in its Strategic Plan for FY 2004-2009, is “Excellence in
regulating the safe and secure use and management of radioactive materials for
the public good.” NRC is authorized to grant licenses for the possession and use
of radioactive materials (e.g., byproduct material,1 source material,2 and special
nuclear material3) and establish regulations to govern the possession and use of
those materials. NRC’s regulations require that certain materials licensees have
extensive material control and accounting programs as a condition of their license
and all other license applicants (including those requesting authorization to
possess small quantities of special nuclear materials) must develop and implement
plans that demonstrate a commitment to accurately control and account for
radioactive materials.

One of NRC’s and the nuclear industry’s highest priorities must be ensuring
adequate protection of public health and safety. Today’s heightened sensitivity to
the control of special nuclear materials warrants NRC’s serious attention to its
licensees’ material control and accounting activities. The challenges currently
facing NRC will be to (1) ensure that there are adequate inspections to verify
licensees’ commitments to their material control and accounting programs, or a
reliable special nuclear materials system; and (2) establish a means to ensure the
accurate accounting for radioactive materials, especially those with the greatest
potential to impact public health and safety.

1 Byproduct material – (1) Any radioactive material (except special nuclear material) yielded in or made
radioactive by exposure to the radiation incident to the process of producing or utilizing special nuclear
material and (2) the tailings or wastes produced by the extraction or concentration of uranium or thorium from
any ore processed primarily for its source material content. [Source: Atomic Energy Act of 1954, Section 11
(e)]

2 Source material – Uranium or thorium or any combination thereof, in any physical or chemical form; or ores
that contain by weight 0.05 percent or more of (1) uranium, (2) thorium, or (3) any combination thereof.
Source material includes depleted uranium and natural uranium, but not “special nuclear material.” [Source:
Title 10 Code of Federal Regulations (CFR) Part 40.4]

3 Special nuclear material – Plutonium, uranium-233, uranium enriched in the isotopes uranium-233 or
uranium-235, and any other material which the Commission, pursuant to the provisions of Section 51 of the
Atomic Energy Act of 1954, as amended, determines to be special nuclear material, but does not include
source material; or any material artificially enriched by any of the foregoing, but does not include source
material. [Source: Title 10 CFR Part 74.4]

                                                      2
              Inspector Generals’ Assessment of the Most Serious Management Challenges Facing NRC



According to NRC managers, most special nuclear material at power reactors is
self-protecting from a health and safety point of view. The agency believes that
this self-protecting aspect (i.e., handling highly radioactive reactor spent fuel is
extremely dangerous) provides reasonable assurance that the material is
controlled. However, NRC’s requirements for nuclear power plant safety are also
based on the need to protect the public from exposure to radioactive release
caused by acts of sabotage. During the past fiscal year, NRC has been directing
the implementation of additional security measures including determining the
appropriate level of security to protect civilian nuclear power facilities.

The Commission determined that greater efficiency and effectiveness would be
achieved by consolidating certain NRC safeguards, security, and incident response
functions into the Office of Nuclear Security and Incident Response (NSIR). As a
result, in June 2004, the Commission transferred the Emergency Preparedness
Directorate to NSIR.

Additionally, NRC continued to improve its security performance evaluation
program (force-on-force evaluations) for ensuring protection of the Nation’s civilian
nuclear power plants. Under that program, NRC has increased the frequency of
force-on-force exercises per year. In addition, each plant is required to conduct
independent exercises.


Related Office of the Inspector General Work

     Audits

     ¨        Audit of NRC’s Incident Response Program
     ¨        Audit of NRC’s Management of Import/Export Authorizations
     ¨        Special Evaluation of the Office of Investigations’ Role in Alleged
              Discrimination Cases
     ¨        NRC Contract for Review of Office of Investigations’ Investigative
              Methods and Techniques
     ¨        Review of NRC’s Reactor Operating Experience Task Force Report
     ¨        Audit of the Licensing Support Network

     Investigations

     ¨        NRC’s Oversight of Davis-Besse Boric Acid Leakage and Corrosion
              During the April 2000 Refueling Outage




                                              3
              Inspector Generals’ Assessment of the Most Serious Management Challenges Facing NRC




CHALLENGE 2
Protection of information.

As a result of increased terrorist activity worldwide, NRC reexamined its practice of
releasing most documents to the public. NRC employees create and work on a
significant amount of information that is sensitive and needs to be protected. This
can be sensitive unclassified information or classified national security information
contained in written documents and various electronic databases. Although the
agency has made strides in improving the withholding of information on NRC’s
website, the OIG’s work found that there have been other instances where
information that was unclassified, but still sensitive, was made available to the
public.

The Executive Director for Operations (EDO) stated that NRC recently modified
guidance concerning the criteria to be applied in considering what information
should be withheld from public disclosure. The standard, established by the
Commission, is that any information that could be useful, or could possibly be
expected to be useful, to a terrorist in a potential attack should be withheld.
Because these types of decisions represent a subjective judgment, the agency
plans to develop formal written guidance (with illustrative examples) on information
that should be withheld from the public. In addition, the agency plans to train
employees in this area.


Related Office of the Inspector General Work

     Audits

     ¨        Audit of NRC’s Protection of Safeguards Information
     ¨        Audit of Federal Information Security Management Act
     ¨        Audit of the Licensing Support Network
     ¨        Review of NRC’s Personnel Security Program Contractor Policies
              and Practices
     ¨        Review of NRC’s Drug-Free Workplace Plan
     ¨        Review of NRC’s Personnel Security Program

     Investigations

     ¨        Improper Release of Official Use Only Information by NRC
              Contractor
     ¨        Improper Release of Predecisional/Classified Information
     ¨        Improper Release of Sensitive Information
     ¨        Improper Release of Proprietary Information By an NRR Employee
     ¨        Improper Distribution of Safeguards Information



                                              4
              Inspector Generals’ Assessment of the Most Serious Management Challenges Facing NRC



     ¨        Adequacy of Criminal History Checks for Unescorted Site Access to
              Nuclear Facilities of Dominion Power


CHALLENGE 3
Development and implementation of a risk-informed and performance-based
regulatory oversight approach.

The Chairman has stated that NRC has increased its safety focus on licensing and
oversight activities through application of a balanced combination of experience,
deterministic models, and probabilistic analysis. This approach is known as risk-
informed and performance-based regulation. However, NRC continues to face
challenges in making its regulatory framework more risk-informed for nuclear
power plants and nuclear material licensees.

Incorporating risk analysis into regulatory decisions improves the regulatory
process by focusing both NRC and licensee attention and activities on the areas of
highest risk. This may result in reducing unnecessary burden on licensees and
increasing the efficiency and effectiveness of the agency’s resources. NRC and its
licensees have enhanced their safety focus through a concerted effort to ensure
adequate protection of public health and safety through the following efforts:

     ·   Continued to develop and implement risk-informed and performance-
         based practices in regulatory processes through rulemaking activities.

     ·   Developed a plan, which is under consideration, for implementing changes
         in the reactor program to enhance the current environment for risk-
         informed regulation.

     ·   Reviewed and revised all inspection procedures in Title 10 CFR Part 70
         (which provides for increasing the use of risk information in regulating fuel
         cycle facilities).


Related Office of the Inspector General Work

     Audits

     ¨ Review of NRC’s Reactor Operating Experience Task Force Report




                                              5
               Inspector Generals’ Assessment of the Most Serious Management Challenges Facing NRC




CHALLENGE 4
Ability to modify regulatory processes to meet changing external demands.

As a result of the changing regulatory and business environment, new areas of
increased emphasis have been created for the NRC. These are detailed in the
NRC Strategic Plan. External as well as internal demands drive the NRC towards
ensuring that it is more open in its regulatory processes. This results in a constant
balancing of long-term improvement efforts and shorter-term emergent issues.
NRC continues to face challenges related to its ability to address workloads
associated with reactor license renewals, new plant licensing, licensee requests to
increase power levels, and high-level waste disposal.

     Reactor License Renewals

NRC’s license renewal program is one of the major elements of its regulatory work.
NRC approval allows a plant to extend the life of a facility for an additional twenty
years past its original 40-year license term. Further, there continues to be a
sustained strong interest in license renewal from utilities. To regulate this activity,
the NRC established the license renewal and environmental impacts program to
verify information submitted in the renewal applications. NRC is dedicated to
further improving the efficiency and effectiveness of the license renewal process.

     New Plant Licensing

Although it has been many years since NRC licensed a new reactor, there has
been renewed interest in plant construction in the U.S. In preparation for the
possibility of new plant licensing, NRC instituted initiatives aimed at streamlining its
regulatory licensing structure. NRC has a site permit process that allows licensees
to seek pre-approval of sites for new reactor units. Through this process, the
agency has received applications for early site permits. Also, NRC has certified
reactor designs which the agency reviews and approves for general use.
Licensees use of a pre-approved design streamlines and shortens the NRC review
process.

     Licensee Requests to Increase Power Levels

A licensee seeks NRC approval to operate a plant at a higher power level than the
level authorized in the original license by submitting a request to increase reactor
power output. As of March 2004, the NRC approved over 100 power uprate
increases. Over the next five years, licensees anticipate requesting additional
power uprates. The agency continues to explore more efficient ways to complete
these reviews.




                                               6
              Inspector Generals’ Assessment of the Most Serious Management Challenges Facing NRC



     High-Level Waste Disposal

According to the Nuclear Waste Policy Act, the Department of Energy (DOE) has
the responsibility to locate, design, build, and operate a repository for high-level
nuclear waste, while NRC has the responsibility to license and regulate this facility.
Over the past several years, NRC has been preparing its license application review
plan. In December 2004, DOE is scheduled to tender a license application for the
construction of a permanent repository for high-level nuclear waste at Yucca
Mountain in Nevada. NRC anticipates that the administrative proceeding to assess
the repository will be an enormous undertaking because a multitude of issues will
need review in a Congressionally mandated 3 to 4 year time frame. One
significant challenge for NRC is ensuring that all parties to the licensing process
and key decision makers have timely access to filings and exhibits involved with
the licensing process.

During FY 2004, two events occurred which could significantly impact the DOE
schedule for tendering its license application and the NRC’s ability to meet its
Congressional mandate. One event was the ruling by a Federal court that the
Environmental Protection Agency’s (EPA) radiation standard relating to the
proposed Yucca Mountain repository was not consistent with the recommendation
of the National Academy of Sciences, as mandated by Congress. As a result, EPA
is planning to revise its radiation standard to meet this mandate. Any change to
the EPA rule will require NRC to revise its regulations in this area, as Congress
also mandated that NRC must incorporate the EPA radiation standard into its
regulations. The other event was a ruling by an NRC Atomic Safety Licensing
Board that DOE improperly certified that it had met its regulatory obligation to
make all of its documentary material related to Yucca Mountain electronically
available via the NRC’s licensing support network, as required by regulation. This
is a significant determination, as it is DOE’s certification that starts a six-month
clock for when DOE’s Yucca Mountain license application can be docketed.
Moreover, Congressional actions regarding the NRC’s budget request for FY 2005
are not yet finalized and may not be completed until well into the fiscal year.

Given these recent events, Challenge 4, the ability to modify regulatory processes
to meet changing external demands, will be prominent for NRC in FY 2005 as it
relates to NRC’s high-level waste program.


Related Office of the Inspector General Work

     Audits

     ¨        Audit of NRC’s Incident Response Program
     ¨        Audit of the Licensing Support Network




                                              7
               Inspector Generals’ Assessment of the Most Serious Management Challenges Facing NRC



CHALLENGE 5
Implementation of information resources.

For this submission, the title of challenge 5 was changed from “Acquisition and
implementation of information resources” as identified in November 2003 to
“Implementation of information resources” to emphasize the importance of the
implementation process. Acquisition is included in challenge 6 with a new
designation - procurement.

Federal agencies’ acquisition and implementation of information resources are
crucial to (1) support critical mission-related operations and (2) provide more
effective and cost-efficient Government services to the public. The necessary link
of information technology to NRC’s mission performance makes it important to
have decision-making processes which ensure that funds are invested and
managed to achieve high value outcomes at acceptable costs. NRC relies on a
wide variety of information systems to help it fulfill its responsibilities and support
its business flow. NRC, like other Federal agencies, continues to work towards
obtaining a good return on these investments. In recent years, NRC has created
large databases of publicly available information, including the Agencywide
Documents Access and Management System (ADAMS), the Licensing Support
Network, and the NRC Web site.

The following sections highlight NRC’s efforts to strengthen and support the
agency’s business needs using information technology strategies.

       Agency E-Mail

To reduce the number of agency e-mails sent to employees on a daily basis, NRC
initiated a consolidated approach to providing general network announcements to
employees. Under this new approach, NRC incorporates all non-priority network
announcements into one e-mail message sent to employees daily. This differs
from the prior approach, where such messages were sent singly to employees at
various times throughout the day. When appropriate, priority messages are still
sent individually to NRC staff.

In another effort to reduce the volume of e-mail sent to employees, the agency
installed a spam e-mail blocker to prevent employees from receiving unsolicited
junk e-mail – generally e-mail advertising for some product sent wide-scale to a
mailing list or newsgroup. Spam is a problem because it clogs the Internet and
NRC’s Local Area Network. NRC receives 33,000 incoming e-mails per day, and
approximately 12 million e-mails annually. About 8 percent of these messages are
now blocked because they are spam. NRC staff update the agency’s list of spam
sources on a daily basis in order to improve its ability to filter spam messages.




                                               8
              Inspector Generals’ Assessment of the Most Serious Management Challenges Facing NRC



      High-Level Waste Meta System

NRC is developing the High-Level Waste Meta System to support the agency’s
review and hearings pertaining to the Department of Energy’s anticipated
application to build a high-level waste repository at Yucca Mountain in Nevada.
The Meta System is the collection of interdependent software applications,
procedures, and supporting technology needed to accomplish NRC’s business
objectives associated with the licensing process. For example, the system will
interface with ADAMS and the Licensing Support Network and will include an
Electronic Information Exchange component to allow parties to submit, service,
and access documents. It will also include the Electronic Hearing Docket, which
will serve as the agency’s official docket; the Digital Data Management System,
which will submit exhibits and hearing transcripts to support hearing functions; and
NRC’s High-Level Waste Collection of records relevant to discovery.

System development is expected to cost between $9 million and $10 million and
staff anticipate that much of the system will be functional by April 2005. The
challenge for NRC will be to ensure that this important project stays on track in
order to effectively support the upcoming license application review process.

      System Development Life Cycle Management Methodology

NRC plans to finalize and issue a Management Directive and Handbook on the
“System Development Life Cycle Management Methodology (SDLCMM)” so that
the approach can successfully be applied to the development of planned systems.
The SDLCMM is a process for management, oversight, reporting, and
documentation of information technology (IT) investments throughout their entire
life cycle and reflects NRC’s process and method for complying with legislative
requirements pertaining to IT investments. NRC has been working to finalize the
document. By issuing the final document, NRC will ensure that agency staff have
easy access to current agency IT system requirements. It is also anticipated that
the final version will reduce the burden placed on NRC offices by the methodology
requirements.


Related Office of the Inspector General Work

     Audits

     ¨        Audit of the Licensing Support Network

     Investigations

     ¨        Sale of Counterfeit Software to NRC by a GSA Supplier
     ¨        Determine Location of Missing NRC Computer Equipment
     ¨        Improper Use of NRC Information Technology by Region IV
     ¨        Inappropriate Software Installed on NRC Computers

                                              9
                  Inspector Generals’ Assessment of the Most Serious Management Challenges Facing NRC




CHALLENGE 6
Administration of all aspects of financial management.

Sound financial management includes effective accounting/budgeting and
procurement operations. A brief discussion of these areas follows.

        Accounting/Budgeting

NRC must be a prudent steward of its fiscal resources through sound financial
management. Sound financial management includes the production of timely,
useful, and reliable information to support agency management; an effective cost
accounting system; effective systems for computing and billing fees; well-
developed strategic planning; and an integrated method for planning, budgeting,
and assessing performance to enable NRC to align programs with outcomes.

FY 2003 was the tenth consecutive year for which NRC received an unqualified
audit opinion on its financial statements. Late in FY 2003, NRC implemented
corrective actions in the area of managerial cost accounting that resulted in the
reclassification of this matter from a material weakness and Federal Financial
Management Improvement Act substantial noncompliance to a reportable
condition.

A November 15th accelerated due date for the agency’s Performance and
Accountability Report heightens the importance of an effective control
environment4 and communications infrastructure within the Office of the Chief
Financial Officer (OCFO). Since the annual financial statement audit report is a
key component of the Performance and Accountability Report, significant matters
that impact the financial statements must be promptly communicated to OCFO top
management and to the OIG to ensure that the financial statements are fairly
presented and that the associated audit reports are based on sound data and
reliable representations. Therefore, this challenge includes OCFO’s continuing
need for effective internal controls, a heightened awareness of a sound control
environment, and continuous improvements to timely and accurate
communications.




4
 United States General Accounting Office, Standards for Internal Control in the Federal Government,
November 1999, defines control environment as follows:

        Management and employees should establish and maintain an environment throughout the
        organization that sets a positive and supportive attitude toward internal control and conscientious
        management.



                                                     10
              Inspector Generals’ Assessment of the Most Serious Management Challenges Facing NRC




      Procurement

NRC’s procurement of goods and services must be made in accordance with
Federal regulations and with an aim to achieve the best value for the agency’s
dollars in a timely manner. During FY 2004, NRC made needed improvements to
its acquisition workforce training program for project managers. Without effective
management controls, the procurement process is susceptible to fraud, waste, and
abuse.


Related Office of the Inspector General Work

     Audits

     ¨        Audit of NRC’s Fiscal Year 2003 Financial Statements
     ¨        Review of NRC’s Implementation of the Federal Managers’ Financial
              Integrity Act for Fiscal Year 2003
     ¨        Report on the Application of Agreed-Upon Procedures with Respect
              to Intragovernmental Activity and Balances as of September 30, 2003
     ¨        Report on Applying Agreed-Upon Procedures with Respect to
              Federal Agencies’ Centralized Trial-Balance System Data as of
              September 30, 2003, and for the Year Then Ended
     ¨        Report on the Application of Agreed-Upon Procedures for U.S. Office
              of Personnel Management
     ¨        NRC Contract for Review of Office of Investigations’ Investigative
              Methods and Techniques
     ¨        Review of NRC’s Administration of Selected Contracts and
              Acquisition Workforce Training
     ¨        Audit of NRC’s Management of Import/Export Authorizations
     ¨        NRC’s Transition to the Department of Interior as Payroll Services
              Provider


CHALLENGE 7
Communication with external stakeholders throughout NRC regulatory
activities.

Management should ensure that there are adequate ways of communicating with
and obtaining information from external stakeholders that may have a significant
impact on the agency achieving its goals. The NRC believes that nuclear
regulation is the public’s business and, therefore, it should be transacted in an
open and candid manner in order to maintain the public’s confidence. NRC has
established a strategic goal that ensures openness that expressly recognizes that
the public must be informed about, and have a reasonable opportunity to
participate in, the regulatory processes. The agency needs to provide a diverse


                                             11
              Inspector Generals’ Assessment of the Most Serious Management Challenges Facing NRC



group of external stakeholders (e.g., the Congress, general public, other Federal
agencies, various industry and citizen groups) clear, accurate, and timely
information about, and a meaningful role in, NRC’s regulatory activities. This
remains a challenging task.

To provide integrated leadership and direction for external communications, the
Chairman established the position of Director of Communications, which reports
directly to his office. As a result, during FY 2004, a new Director of
Communications and three technical communication assistants were hired.

In January 2004, NRC issued guidelines for effectively communicating risk-related
information to external stakeholders. The document provides guidance for agency
management and staff concerning NRC-specific communication topics and
situations that deal with risk to ensure the agency’s openness with the public.

In June 2004, the Commission approved a proposal to conduct a limited telephone
survey of targeted stakeholders as a tool to measure results in achieving NRC’s
strategic goal of ensuring openness. The survey will ascertain stakeholder views
concerning the quality of NRC’s openness in the following areas: (1) credibility as
a regulator, (2) effectiveness in clearly communicating factual information, and (3)
responsiveness to stakeholders’ concerns.

NRC maintains a public website to encourage communication with stakeholders.
The site provides a variety of links to pertinent documents, updates on activities,
and information on opportunities for stakeholder input. In addition, NRC is working
on an Emergency Planning website, currently in the draft stage, which should be
unveiled within the next couple of months.


Related Office of the Inspector General Work

     Audits

     ¨        Audit of NRC’s Incident Response Program

     Investigations

     ¨        Concerns Regarding Inadequate NRC Oversight of Steam Generator
              Inspections at Seabrook Nuclear Power Plant
     ¨        Improper Actions by an NRR Manager Towards NRC Licensees
     ¨        NRC Improperly Conducting Closed Meetings with DOE re: Yucca
              Mountain
     ¨        Accuracy of Information Provided by NRC Managers to Commission
     ¨        Improper Distribution of Safeguards Information
     ¨        Improper Release of Official Use Only Information by NRC
              Contractor


                                             12
              Inspector Generals’ Assessment of the Most Serious Management Challenges Facing NRC




CHALLENGE 8
Intra-agency communication (up, down, and across organizational lines).

Effective communications should occur with information flowing up, down, and
across the organization. Information should be communicated to management and
others within the organization who need it and in a form, and within a time frame,
that enables them to carry out their responsibilities.

NRC has instituted various actions to improve its internal communications over the
past year. The new Director of Communications and the technical communications
assistants will be working to improve this area. The agency continues to produce
electronic “EDO Updates.” These represent timely and succinct communications
between the EDO and the entire staff. NRC also recently redesigned its internal
Web site to address different types of employee concerns. The new Web page
directs employees to resources that are available to discuss a variety of issues.
Moreover, NRC continues to hold “All Employees” meetings as a mechanism for
direct two-way communication between the Commission and agency staff. NRC’s
recently issued Strategic Plan stresses the importance of the role of internal
communications in achieving the agency’s mission and goals.

The NRC established a Communications Council that will plan, coordinate, and
implement the agency’s internal communication strategies and share best
practices across the agency.


Related Office of the Inspector General Work

     Audits

     ¨        Review of NRC’s Reactor Operating Experience Task Force Report
     ¨        Audit of NRC’s Protection of Safeguards Information
     ¨        Controls to Prevent Unauthorized Entry into the NRC Parking Garage

     Investigations

     ¨        NRC’s Oversight of Davis-Besse Boric Acid Leakage and Corrosion
              During the April 2000 Refueling Outage
     ¨        Accuracy of Information Provided by NRC Managers to Commission




                                             13
              Inspector Generals’ Assessment of the Most Serious Management Challenges Facing NRC




CHALLENGE 9
Managing human capital.

NRC’s workforce must possess detailed knowledge and specialized technical skills
to fulfill its public health and safety mission. To maintain this expertise, NRC will
need to build its human capital in the technical, financial, and administrative areas.
NRC has identified the management of human capital as a major challenge in its
new Strategic Plan. The challenges that NRC faces include loss of institutional
knowledge and critical skills, an aging workforce, and a shrinking labor pool. Thirty
percent of the Federal workforce will be eligible to retire in 5 years and an
additional 20 percent could seek early retirement. This does not necessarily mean
that 50 percent of Government employees will actually retire in the short-term, but
it does emphasize how important it is for NRC to plan for its future workforce.

For these reasons, NRC periodically assesses its human capital situation looking
for ways to make improvements to support the achievement of its mission and
goals. This includes, but is not limited to, the following significant initiatives to
offset the potential loss of human capital.

     ·   Use of creative recruitment, development, and retention strategies to
         maintain a high quality, diverse workforce with the skills needed to achieve
         NRC’s mission.

     ·   Use of formal development programs to maintain and develop future
         leaders.

     ·   Maintenance of an effective program of training, development, and
         knowledge transfer to ensure that NRC acquires and maintains the
         appropriate knowledge, skills, and abilities to achieve its mission and
         goals.

     ·   Maintenance of a healthy, safe, secure, and accessible physical work
         environment.

With these and other ongoing efforts, NRC believes that it will successfully target
its critical skill needs and hire, develop, motivate, and retain employees with the
skills needed to support the agency’s Strategic Plan.


Related Office of the Inspector General Work

     Audits

     ¨        NRC’s Implementation of Regulations Concerning Nondiscrimination
              Based on Handicap


                                             14
              Inspector Generals’ Assessment of the Most Serious Management Challenges Facing NRC



      ¨      Review of NRC’s Administration of Selected Contracts and
             Acquisition Workforce Training
      ¨      Review of NRC’s Personnel Security Program


CONCLUSION

One of the OIG’s strategic goals is to improve the economy, efficiency, and
effectiveness of NRC corporate management. The Inspector General’s
identification of the most serious management challenges facing the agency and
the OIG’s commitment to ensuring the integrity of NRC programs and operations
help achieve this goal. Further, as evidenced by this review, the agency continues
to take steps to address the management challenges.

Although the nine challenges identified in this report are distinct, they are also
interdependent. NRC continues to address these challenges through planning and
in day-to-day operations. The following chart illustrates the linkage between the
nine challenges in this report and the NRC Strategic Plan. Addressing these
management challenges clearly enhances NRC’s ability to successfully meet its
public health and safety mission and vision.

cc:   Commissioner McGaffigan
      Commissioner Merrifield
      Luis Reyes, EDO
      William Dean, OEDO




                                             15
             Inspector Generals’ Assessment of the Most Serious Management Challenges Facing NRC




          Linkage Between OIG’s List of Management Challenges
           And NRC’s Strategic Plan for Fiscal Years 2004-2009

OIG’s List of Management Challenges for NRC                   NRC Strategic Plan
                    (FY 2004)                                     References
 Challenge 1                                            Strategic Goals I and II
 Protection of nuclear material used for
 civilian purposes.
 Challenge 2                                            Strategic Goals II and III
 Protection of information.
 Challenge 3                                            Strategic Goals I, II, and IV
 Development and implementation of a risk-
 informed and performance-based regulatory
 oversight approach.
 Challenge 4                                            Strategic Goal IV and Appendix
 Ability to modify regulatory processes to              A
 meet changing external demands.
 Challenge 5                                            Strategic Goals II, IV, and V.D
 Implementation of information resources.
 Challenge 6                                            Strategic Goals V.A and V.C
 Administration of all aspects of financial
 management.
 Challenge 7                                            Strategic Goals III and V.D
 Communication with external stakeholders
 throughout NRC regulatory activities.
 Challenge 8                                            Strategic Goals V.A and V.F
 Intra-agency communication (up, down, and
 across organizational lines).
 Challenge 9                                            Strategic Goal V.A
 Managing human capital.




                                            16
               Inspector Generals’ Assessment of the Most Serious Management Challenges Facing NRC



Distribution List

B. John Garrick, Chairman, Advisory Committee on Nuclear Waste
Mario V. Bonaca, Chairman, Advisory Committee on Reactor Safeguards
John T. Larkins, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
G. Paul Bollwerk, III, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jesse L. Funches, Chief Financial Officer
Janice Dunn Lee, Director, Office of International Programs
William N. Outlaw, Director of Communications
Dennis K. Rathbun, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
Patricia G. Norry, Deputy Executive Director for Management Services, OEDO
William F. Kane, Deputy Executive Director for Homeland Protection
  and Preparedness, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research
  and State Programs, OEDO
Ellis W. Merschoff, Deputy Executive Director for Reactor Programs, OEDO
Jacqueline E. Silber, Chief Information Officer
Michael L. Springer, Director, Office of Administration
Frank J. Congel, Director, Office of Enforcement
Guy P. Caputo, Director, Office of Investigations
Paul E. Bird, Director, Office of Human Resources
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Carl J. Paperiello, Director, Office of Nuclear Regulatory Research
Paul H. Lohaus, Director, Office of State and Tribal Programs
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
Office of Public Affairs, Region I
Office of Public Affairs, Region II
Office of Public Affairs, Region IV




                                              17
